NRC: OIG/97A-20 - Review of NRC's Management Directive 6.1
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1997 > OIG/97A-20
OIG/97A-20 - Review of NRC's Management Directive 6.1
Contents
Overview
Report Synopsis
Introduction
Findings
Conclusion
Recommendation
Agency Comments
Objectives, Scope, and Methodology
Major Contributors to this Report
Glossary:  Office of the Inspector General Products
Overview
Office of the Inspector General U.S. Nuclear Regulatory Commission Washington, D.C. 20555-0001 September 5, 1997
Memorandum For:
L. Joseph Callan Executive Director for Operations
Jesse L.  Funches Chief Financial Officer
Anthony J.  Galante Chief Information Officer
From:
Thomas J. Barchi Assistant Inspector General for Audits
Subject:
Review of NRC's Management Directive 6.1
Attached is the Office of the Inspector General's audit report entitled, "Review of NRC's Management Directive 6.1."
On August 29, 1997, the Executive Director for Operations responded to our draft report.  He agreed with our recommendations and stated corrective actions will be complete by March 2, 1998.
Please contact me on 415-5915 if we can assist you further in this matter.
Report Synopsis
Office of Management and Budget Circular A-50, "Audit Follow-up," requires each agency to establish systems to assure the prompt and proper resolution and implementation of audit recommendations.  These systems shall provide for a complete record of actions taken on all recommendations.
In light of NRC's recent organizational changes and establishment of an Executive Council, we reviewed the adequacy of the agency's current directive for responding to Office of the Inspector General (OIG) audit reports and for reaching resolution on recommendations.
While the agency maintains a centralized tracking system, we found that Management
Directive 6.1/Handbook needs to be updated to reflect organizational changes
made by the Commission that became effective in January 1997. Specifically,
OIG recommended that NRC clarify who is responsible for: (1) reviewing
and responding to OIG draft audit reports and (2) resolving disagreements on
audit recommendations that arise between the OIG and agency officials.
Introduction
Audit follow-up is an integral part of good management and is a shared responsibility of agency management officials and auditors.  Corrective action by management on agreed upon findings and recommendations is essential to improving the effectiveness and efficiency of agency operations.
In light of NRC's recent organizational changes, we reviewed the agency's directive
for responding to Office of the Inspector General (OIG) audit reports and for
reaching resolution on recommendations to determine if the directive needed
revision.
Background
Office of Management and Budget (OMB) Circular A-50, "Audit Follow-up," requires each agency to establish systems to assure the prompt and proper resolution and implementation of audit recommendations.  These systems shall provide for a complete record of actions taken on all recommendations.
OMB Circular A-50 also requires that agency heads designate a top management official to oversee audit follow-up, including resolution and corrective action.  The agency's audit follow-up official (AFO) has the responsibility for ensuring that systems of audit follow-up, resolution, and corrective action are documented and in place.
NRC's Management Directive 6.1/Handbook, "Resolution and Follow-up of Audit Recommendations," outlines specific responsibilities for senior management personnel and requires the documentation of management actions and decisions related to follow-up activity.  The current Directive designates the Executive Director for Operations (EDO) to serve as the AFO.  To achieve the purpose of both the OMB Circular and Management Directive 6.1/Handbook, NRC's AFO uses a centralized tracking system called the Work Item Tracking System.
In January 1997, the NRC Chairman realigned the EDO's responsibility and established
a three-person Executive Council. The Executive Council is made up of the Executive
Director for Operations, the Chief Information Officer (CIO), and the Chief
Financial Officer. All three report directly to the Chairman.
Findings
We found that the agency's guidance for handling and resolving OIG audit recommendations is outdated and needs to be revised to reflect the current organizational structure and establishment of an Executive Council.
Management Directive 6.1/Handbook provides internal guidance to NRC personnel for implementing OMB Circular A-50.  Moreover, existing guidance assigns the EDO as the AFO.  As such, the EDO is currently responsible for resolving disagreements between the Deputy Executive Directors for Operations (DEDOs) and the Inspector General regarding internal audit findings and recommendations.  Additionally, DEDOs are responsible for reviewing and responding to draft internal audit reports for their respective areas of responsibility.  However, the EDO and DEDO's authority was documented in 1993 -- prior to the agency's January 1997 major organizational realignment.
We believe NRC's Management Directive 6.1/Handbook needs to be revised to reflect this organizational change.  Specifically, organizational responsibilities and delegations of authority need to be clarified to establish who is responsible for:  (1) reviewing and responding to OIG draft audit reports and (2) resolving disagreements on audit recommendations that arise between OIG and agency officials.
In our discussions with the Secretary of the Executive Council, he agreed Management
Directive 6.1/Handbook needs revision to reflect current responsibilities for
reviewing OIG draft reports and resolving disagreements on recommendations.
He also advised us that OIG draft reports should continue to be sent to the
deputy official primarily responsible for the program under audit as required
by current guidance. He added, however, because a deputy position for information
management (CIO organization) does not currently exist, draft reports in this
area should be sent directly to the CIO for review and response. Further, the
NRC Chairman should resolve disagreements on audit recommendations that arise
between OIG and the CIO.
Conclusion
Management Directive 6.1/Handbook needs to be revised to reflect current organizational
changes that took effect January 5, 1997. Specifically, organizational responsibilities
and delegations of authority need to be clarified responsibility for: (1) reviewing
and responding to OIG draft audit reports and (2) resolving disagreements
on audit recommendations that arise between OIG and agency officials.
Recommendation
The EDO should revise Management Directive 6.1/Handbook to identify the NRC officials responsible for:
Reviewing and responding to OIG draft audit reports.
Resolving disagreements on audit recommendations that arise between OIG
and agency officials.
Agency Comments
On August 29, 1997, the Executive Director for Operations responded to our
draft report. He agreed with our recommendations and stated corrective actions
will be complete by March 2, 1998.
Objectives, Scope, and Methodology
The objective of the Office of the Inspector General's review, in light of NRC's recent organizational changes, was to review the adequacy of the agency's current directive for responding to audit reports and for reaching resolution on recommendations.
To accomplish this objective, we reviewed NRC's policies and procedures regarding audit follow-up and the authorities and responsibilities delegated to NRC managers.  We interviewed the Secretary of the Executive Council as well as other persons assigned follow-up responsibility on behalf of the audit follow-up official.  We did not test the completeness or accuracy of the agency's centralized tracking system for audit recommendations.
Our review was performed at NRC Headquarters during the period July through
August 1997 in accordance with generally accepted Government auditing standards.
Major Contributors to this Report
Anthony C. Lipuma Team Leader
Michael A. Cummins
Auditor
Glossary: Office of the Inspector General Products
Investigative
1. Investigative Report - White Cover
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. Event Inquiry - Green Cover
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3. Management Implications Report (MIR) - Memorandum
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of problems and to avoid similar issues in the future.  Agency tracking of recommendations is not required.
Audit
4. Audit Report - Blue Cover
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. Special Evaluation Report - Burgundy Cover
A Special Evaluation Report documents the results of short-term, limited assessments.  It provides an initial, quick response to a question or issue, and data to determine whether an in-depth independent audit should be planned.  Agency tracking of recommendations is not required.
Regulatory
6. Regulatory Commentary - Brown Cover
Regulatory Commentary is the review of existing and proposed legislation, regulations,
and policies so as to assist the agency in preventing and detecting fraud, waste,
and abuse in programs and operations. Commentaries cite the IG Act as authority
for the review, state the specific law, regulation or policy examined, pertinent
background information considered and identifies OIG concerns, observations,
and objections. Significant observations regarding action or inaction by the
agency are reported in the OIG Semiannual Report to Congress. Each report indicates
whether a response is required.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees